NATIONAL CREDIT UNION ADMINISTRATION
      OFFICE OF INSPECTOR GENERAL




        NCUA WEBSITE PRIVACY
        AND “COOKIES” REVIEW

         Report #OIG-01-06           May 31, 2001




                        Frank Thomas
                      Inspector General




             Released by:             Auditor in Charge:
           William A. DeSarno          Tammy F. Rapp
      Assistant Inspector General     Senior IT Auditor
                for Audits
                      TABLE OF CONTENTS




                                                                       Page

EXECUTIVE SUMMARY                                                       i

INTRODUCTION                                                            1

BACKGROUND                                                              1

OBJECTIVES                                                              3

SCOPE AND METHODOLOGY                                                   3

OBSERVATIONS AND RECOMMENDATIONS                                        5

     NCUA’s Internet Privacy Statement Substantially Complied with      5
     OMB Policy

     NCUA is in Compliance with Its Policy Prohibiting the Use of       6
     Cookies on Its Internet Site

     NCUA does not Create User Profiles, Sell, or Give Away             6
     Personal Information Obtained via the Web Site or E-mail

     NCUA needs to ensure the privacy policy is posted on all major     7
     entry points

     NCUA should post a notice informing visitors when they exit the    7
     NCUA website

EXHIBIT:                                                                8

     NATIONAL CREDIT UNION ADMINISTRATION’S
     INTERNET PRIVACY POLICY STATEMENT
                        EXECUTIVE SUMMARY

Public Law 106-554 required Inspectors General to submit a report to Congress
relating to the collection of personally identifiable information. In addition, the
National Credit Union Administration (NCUA) Office of Inspector General (OIG)
took this opportunity to review NCUA’s compliance with Office of Management
and Budget Memoranda M-99-18 and M-00-13, which requires agencies to post
Internet privacy policies, and generally prohibits the use of persistent cookies on
agency web sites.

The OIG found that NCUA’s Internet Privacy Statement substantially complied
with OMB policy. The OIG also determined NCUA was in compliance with its
policy prohibiting the use of cookies on its Internet site. NCUA collects limited
personal information through its web site and does not create any user profiles,
or sell any personal information that is obtained via the web site.

The OIG review focused on the collection of personal information through
electronic submission of data and the use of cookies on NCUA’s external Internet
site. The review included inq uiry of personnel, document review and analysis.
The OIG also tested 384 pages on NCUA’s web site to determine if cookies were
placed on visitor’s computers.

The OIG offered two recommendations for improving web site policy notification.
NCUA has agreed to complete action on the report’s recommendations by June
29, 2001.




                                         i
                                      INTRODUCTION

The “Treasury and General Government Appropriations Act, 2001” Public Law
106-554 – Appendix C, 114 Stat. 2763A-170 (“P.L. 106-554”), requires
Inspectors General (IG) to submit a report to Congress relating to the collection
of personally identifiable information. In addition to this requirement to report on
the collection of personal information, the National Credit Union Administration
(NCUA) Office of Inspector General (OIG) took this opportunity to review NCUA’s
compliance with Office of Management and Budget (OMB) Memoranda M-99-18
and M-00-13, which requires agencies to post Internet privacy policies, and
generally prohibits the use of persistent cookies.


                                       BACKGROUND

The public has great concern about their privacy protection. Of recent interest,
the public has been concerned with organizations using Internet cookies to
obtain personal information and/or use that information to track personal habits.
As a result of this concern, Congress passed legislation to protect the public’s
privacy when surfing federal web sites.



A cookie is a small text file placed on a visitor’s computer by a web server.
When a visitor goes to a cookie enabled web site, the server sends a small text
file to the user without the user taking any action (and generally without the
user’s knowledge). This file can be used to track a visitor when they return to the
web site. With the exception of the user’s IP address 1, type of browser, and
operating system, only information the visitor provides can be stored in a cookie.

Allowing a web site to create a cookie does not give that or any other site access
to the rest of your computer, and only the site that created the cookie can read it.
Cookies are frequently used by Internet shopping sites to keep account
information and personal preferences, such as user id, password, and items
placed in a shopping cart. The most controversial use of cookies is the collection
of demographics, browsing, and/or shopping habits by advertising companies.

There are different types of cookies. Session cookies are stored temporarily on a
visitor’s computer and expire when they close the browser. Since the cookie is
temporary, it cannot be used to track a visitor and therefore there are fewer
concerns about privacy with session cookies. Persistent cookies are

1
 IP address is a unique string of numbers that identifies a computer on the Internet. Although this could be
used as a personal identifier, most large organizations use one IP number through a proxy server, and most
home users are assigned a dynamic address by their Internet service provider. It is usually difficult or
impossible to associate an IP address with a person.



                                                     1
permanently stored on the visitor’s computer until the cookie expiration date, and
each time the visitor returns to the subject web site, the cookie informs the server
that this particular visitor has returned.



Section 646 of P.L. 106-554, enacted on December 21, 2000 requires that “the
Inspector General of each department or agency shall submit to Congress a
report that discloses any activity of the applicable department or agency relating
to –
    1. the collection or review of singular data, or the creation of aggregate lists
       that include personally identifiable information, about individuals who
       access any Internet site of the department or agency; and
    2. entering into agreements with third parties, including other government
       agencies, to collect, review, or obtain aggregate lists or singular data
       containing personally identifiable information relating to any individual’s
       access or viewing habits for governmental and nongovernmental Internet
       sites.”


OMB Memorandum M-00-13 reminds agencies to establish clear privacy policies
for its web activities and to comply with those activities. This memo prohibits the
use of “cookies” at Federal web sites unless four conditions are met:
    • The site gives clear and conspicuous notice;
    • There is a compelling need to gather the data on the site;
    • Appropriate and publicly disclosed privacy safeguards exist for handling
        any information derived from the cookies; and
    • The agency head gives personal approval for the use.

OMB clarified the definition of “cookies” in a memo dated September 5, 2000.
This memo prohibits the use of persistent cookies unless the above four
conditions are met. It further states, “we are concerned about persistent cookies
even if they do not themselves contain personally identifiable information.”

The September clarification permits the use of session cookies, as follows:
“specifically, they may retain the information only during the session or for the
purpose of completing a particular online transaction, without any capacity to
track users over time and across different web sites. When used only for a single
session or transaction, such information can assist web users in their electronic
interactions with government, without threatening their privacy.”


OMB M-99-18 directs agencies “to post clear privacy policies on World Wide
Web sites”. Specifically, agencies should “add privacy policies to any other
known, major entry points to your sites as well as at any web page where you
collect substantial personal information from the public. Each policy must clearly


                                          2
and concisely inform visitors to the site what information the agency collects
about individuals, why the agency collects it, and how the agency will use it.
Privacy policies must be clearly labeled and easily accessed when someone
visits a web site.”

The attachment to M-99-18 provided guidance and model language for web site
privacy policies. “Every Federal web site must include a privacy policy
statement, even if the site does not collect any information that results in creating
a Privacy Act record. “ The attachment to M-99-18 provides specific examples
that may be incorporated in an agency’s web site privacy policy statement.


                                OBJECTIVES
Our objective was to determine whether NCUA was in compliance with the OMB
and agency policies on the privacy of personal information obtained via the
agency’s web site and the use of Internet cookies.


                    SCOPE and METHODOLOGY

Our review focused on the collection of personal information through electronic
submission of data and the use of cookies on NCUA’s external Internet site. Our
review included inquiry of personnel, document review and analysis. We also
tested NCUA’s web site to determine if cookies were placed on visitor’s
computers.

Specifically, we performed the following steps:
   • Interviewed the Chief Information Officer and Webmaster
   • Reviewed the following laws and regulations pertaining to website privacy
       and collection of personal information:
           o Public Law 106-554, 12/21/2000
           o OMB Memo, 9/5/2000, clarifying M-00-13
           o OMB M-00-13, 6/22/2000
           o OMB M-99-18, 6/2/1999
   • Reviewed NCUA’s Internet Privacy Policy and compared it to guidance
       issued by OMB
   • Reviewed General Accounting Office (GAO) a nd other IG audit reports.




                                          3
In addition, we tested 384 pages
on NCUA’s web site to determine if
any cookies were placed on a
visitor’s computer. We tested the
most commonly accessed pages
from the period between May 12
and May 19, 2001, as well as most
of the major categories and offices.
To perform the test, we used an
option in our Internet browser to
prompt us before a cookie was
created on our computer. We also
determined if any personal
information was requested of the user. As of May 19, 2001, NCUA had 6,111
unique URL’s2, which included web pages, graphic files, adobe documents, and
executable files.

The OIG conducted this audit from our office in Alexandria, Virginia, during May
2001. This review was performed in accordance with generally accepted
government auditing standards.




2
    URLs are the Internet equivalent of addresses.



                                                     4
                             OBSERVATIONS

 NCUA’S Internet Privacy           NCUA was in substantial compliance with OMB
 Statement Substantially           guidance regarding privacy policies on websites.
 Complied with OMB                 NCUA’s policy was clearly labeled and easily
 Policy                            identified on the home page (see graphic below).
                                   The policy indicates, “NCUA does not use
cookies." It also addresses the collection of personal information from the web
site, on-line forms, and e -mail correspondence.




                                        5
The Webmaster prepared the privacy policy statement for posting on the web
site. In August 1999, the Office of General Counsel reviewed the draft statement
prior to posting, and recommended placement of the privacy policy on pages
“where the NCUA website invites the public to submit comments or otherwise
contact us”. The privacy policy was posted in late August 1999.

OMB M-99-18 requires agencies to post clear privacy policies on major entry
points of their websites. The policy should be clearly labeled, easily accessible,
and include what information is collected, why it is collected, and how the agency
will use it.

We did not observe any web page where substantial personal information was
collected on NCUA’s web site. The user in an e-mail request generated the
primary source of any personal information. The only exception to compliance
with OMB’s policy related to the posting of the Internet privacy policy. We found
the privacy policy posted on the home page and a few other selected pages
throughout the site, but the privacy policy was not currently posted on all major
entry points.

We did not observe any notices prior to leaving the NCUA website and going to
an external link. Although not required by OMB, it is important to clearly notify
visitor’s when exiting the NCUA website that our privacy policy no longer applies
and the policy of the website they are transferred to applies. For instance, some
of the links contained on NCUA’s website transferred visitor’s to commercial sites
that set persistent cookies.



 NCUA is in Compliance          NCUA clearly states in its policy that, “NCUA
 with Its Policy Prohibiting    does not use "cookies." We tested 384 pages of
 the Use of Cookies on Its      NCUA’s web site to confirm compliance with the
 Internet Site                  policy and found no indication of cookies. To
                                test the web site, we used a feature with our
Internet browser that prompts you when a cookie is present.

OMB M-00-13 and the subsequent clarification memo prohibit the use of
persistent cookies unless four conditions are met. Session cookies are
permitted. We did not detect any persistent or session cookies on NCUA’s web
site.


                                Our review of NCUA’s web site and Internet
 NCUA does not Create
                                privacy policy confirmed that limited personal
 User Profiles, Sell or Give
                                information is collected directly from the Internet.
 Away Personal
                                There were e -mail and other on-line forms where
 Information Obtained via
                                a visitor may provide personal information, but
 the Web Site or E-mail


                                        6
this information is generally limited to name, e-mail address, and other contact
information. NCUA uses the information provided to fulfill visitor requests and
make improvements to its web site.

We reviewed a log from the web server. The web server log shows most
frequently used time periods, most commonly accessed web pages, and IP
addresses. We did not observe any personal information collected via the web
server log.

NCUA does not compile any personal information to create user profiles. Any
limited personal information obtained is used for performing government
functions. NCUA’s policy states, “NCUA does not give, sell or transfer personal
information to third parties, unless required by law.”



                         RECOMMENDATIONS
 NCUA needs to Ensure            Recommendation #1:
 the Privacy Policy is           NCUA needs to ensure compliance with OMB M-
 Posted on All Major Entry       99-18 by defining major entry points and
 Points                          ensuring the privacy policy is posted at these
                                 points. Some agencies have defined major entry
points as the home page, most frequently accessed pages, web pages where
substantial personal information is collected, or major component. Some have
used a combination of these criteria to define major entry points.

Should NCUA begin to collect personal information via its web site in the future,
OMB requires the privacy policy to be posted on pages where substantial
personal information is collected, in addition to major entry points.

OCIO stated that it is in the process of defining NCUA’s web site entry points and
posting the privacy policy at these points by June 29, 2001.


 NCUA should Post a              Recommendation #2:
 Notice Informing Users          Although not required by current laws and
 when they Exit the NCUA         regulations, NCUA should post a notice
 Website                         informing visitors when they are leaving the
                                 NCUA web site. This notice should inform
visitors that NCUA’s privacy policy does not apply once they leave our site, and
that NCUA is not responsible for the content of the external site.

By June 29, 2001, OCIO has stated that it will identify NCUA’s major website exit
points, and post a notice at these points that the user is exiting NCUA’s site and
that NCUA’s privacy policy is no longer in effect.


                                        7
   EXHIBIT:
   NATIONAL CREDIT UNION ADMINISTRATION’S
   INTERNET PRIVACY POLICY STATEMENT


                    Internet Privacy Policy Statement
                                    for the
                     National Credit Union Administration
Thank you for visiting the National Credit Union Administration Web site and reviewing our internet privacy
policy.


Information Collected and Stored Automatically

For site security purposes and to ensure that this service remains available to all users, NCUA employs software
programs to monitor network traffic to identify unauthorized attempts to upload or change information, or
otherwise cause damage.

For site management, information is collected for statistical purposes. Computer software programs are used to
create summary statistics, which are used for such purposes as assessing what information is of most and least
interest, determining technical design specifications, and identifying system performance or problem areas. No
personal information, such as your name or address, is collected or used for this analysis. We collect no
information which would identify you personally.

We automatically collect and store only the following information about your visit:

    •    The Internet domain (for example, "xcompany.com" if you use a private Internet access account, or
         "yourschool.edu" if you connect from a university's domain) and IP address (an IP address is a number
         that is automatically assigned to your computer whenever you are surfing the Web) from which you
         access our web site
    •    The date and time you access our site
    •    The pages you visit and the result of the request, such as an image or query
    •    Other status codes and values resulting from the Web server responding to the request received: HTTP
         status code, Windows NT code, number of bytes sent, number of bytes received, duration (in seconds) to
         fulfill the request, server port number addressed, and protocol version.


NCUA does not use "cookies." (A "cookie" is a file placed on your hard drive by a Web site that allows it to
monitor your visit, usually without your knowledge.) You can set your browser to warn you when placement of a
cookie is requested and decide whether or not to accept it.


Information Collected from E-mails and Web Forms

When you send us personally identifying information, for example, in an electronic mail message containing a
question or comment or by filling out a form that E-mails us this information, we use this information to fulfill or
respond to your requests. We may store these requests to provide us with information for future improvements to
our Web site. We may forward your E-mail to other government employees who are better able to respond to your
request. NCUA may also use this information to help us do our work. We do not create individual profiles with the
information you provide. NCUA does not give, sell or transfer personal information to third parties, unless
required by law.




                                                         8
